=
I

(SOCK LE

 

2311 Douglas Street . E-Mail Address:
Omaha, Nebraska 68102-1214 L ega l B 4 Lefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 19-616

W.A. AND M.S., INDIVIDUALLY AND ON BEHALF OF W.E.,
Petitioners,
v.
HENDRICK HUDSON CENTRAL SCHOOL DISTRICT,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 2951 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 26th day of December, 2019.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska : LE Qudraw- ,
My Commission Expires Nov 24, 2020 i

Notary Public Affiant 39242

 

 
